Highlights
Table of Contents




                    Revenue Plan
                    and Sales
                    Targets
Findings
Recommendations




                    Audit Report
                    Report Number
                    MS-AR-14-007

                    September 8, 2014
Appendices




                                        Print
Highlights
Table of Contents




                    Highlights                            Background                                                             were below the prior year’s actual revenue. The Postal
                                                                                                                                 Service has aggressively cut expenses, but continuing to set
                                                          Each year the U.S. Postal Service establishes various financial
                                                                                                                                 bolder and more aggressive revenue plans could improve
                                                          projections. One key projection is the revenue plan, which
                                                                                                                                 revenue performance.
                                                          reflects the expected revenue generated by the Postal Service
                         The Postal Service revenue       from all sources and channels. The revenue plan was set at          ■■ Not all Postal Service employees have a specific revenue
Findings




                                                          $67.7 billion in fiscal year (FY) 2014.                                goal in their individual pay for performance measures.
                      plan could be more aggressive                                                                              Leading organizations distribute revenue goals to all
                                                          The Postal Service’s Sales organization also establishes a
                       to better promote growth and                                                                              operational employees.
                                                          sales target for new sales. While this is a component of the
                                                          overall revenue plan, it is tracked separately and is specific to   ■■ Targets for individual sales staff do not reflect local
                    reflect increases in sales targets.
                                                          the Sales organization. This target was set at              in         conditions such as the type of customers and local economy.
                                                          FY 2014.                                                               Instead, the Postal Service’s sales targets are distributed
Recommendations




                                                                                                                                 equally based on the position held by the salesperson. For
                                                          Our objective was to identify industry best practices and to
                                                                                                                                 example, the FY 2014 sales target for all shipping solutions
                                                          evaluate the Postal Service’s revenue plan and sales targets,
                                                                                                                                 specialists is          , regardless of any other factors
                                                          including how they are determined, distributed, and monitored.
                                                                                                                                 — either internal or external — that might affect sales
                                                                                                                                 opportunities. Best practices of leading organizations include
                                                          What the OIG Found                                                     a robust account management and territory segmentation
                                                          Based on our review and research of best practices, the                process that considers a variety of internal and external
                                                          Postal Service can improve how it determines, distributes,             factors.
                                                          and monitors its revenue plan and sales targets to drive
                                                          greater revenue performance and promote a focus on revenue          ■■ The Postal Service does not have a system to reconcile
                                                          generation. Specifically:                                              the estimated revenues recorded by the Sales organization
                                                                                                                                 with actual realized revenues. Best-in-class organizations
Appendices




                                                          ■■ The Postal Service revenue plan could be more aggressive            have information systems that allow them to track revenue
                                                             to better promote growth and reflect increases in sales             associated with customer accounts from initiation of the
                                                             targets. While the FY 2014 revenue plan reflected higher            sales cycle to realization of revenue.
                                                             revenue growth, the revenue plans for FYs 2012 and 2013
                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                     Print                                    1
Highlights
Table of Contents




                                                     What the OIG Recommended
                                                     We recommended the Postal Service develop a strategy that
                                                     emphasizes revenue generation throughout the organization
                                                     by creating more aggressive revenue plans that integrate
                                                     forecasted sales growth. We also recommended management
Findings




                                                     establish individual revenue-related performance measure for
                                                     operational employees covered by the pay for performance
                                                     program. Finally, we recommended management develop
                                                     strategies for determining and distributing customized sales
                                                     targets as well as reconciling estimated sales revenue with
                                                     actual realized revenue.
Recommendations
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                    Print   2
Highlights
                    Transmittal Letter


                                                     September 8, 2014
Table of Contents




                                                     MEMORANDUM FOR:	           WILLIAM C. RUCKER III
                                                     				                       VICE PRESIDENT, SALES

                                                     				                       SHAUN E. MOSSMAN
                                                     				                       VICE PRESIDENT, FINANCE AND PLANNING

                                                     				                       VINAY K. GUPTA
                                                     				                       DIRECTOR, COMPENSATION AND BENEFITS

                                                                                    E-Signed by Janet Sorensen
                                                                               VERIFY authenticity with eSign Desktop


                                                     				
Findings




                                                     FROM: 			 Janet M. Sorensen
                                                     				      Deputy Assistant Inspector General
                                                     				       for Revenue and Resources

                                                     SUBJECT: 			               Audit Report — Revenue Plan and Sales Targets
                                                     				                       (Report Number MS-AR-14-007)
Recommendations




                                                     This report presents the results of our audit of the U.S. Postal Service’s Revenue Plan
                                                     and Sales Targets (Project Number 13RG027MS000).

                                                     We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                     questions or need additional information, please contact Joe Wolski, director, Sales
                                                     and Marketing, or me at 703-248-2100.

                                                     Attachment

                                                     cc:	   Corporate Audit and Response Management	
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                         Print                 3
Highlights
                    Table of Contents                Cover
                                                     Highlights.......................................................................................................1
                                                      Background.................................................................................................1
                                                      What the OIG Found...................................................................................1
                                                      What the OIG Recommended.....................................................................2
                                                     Transmittal Letter...........................................................................................3
                                                     Findings.........................................................................................................5
Table of Contents




                                                      Introduction.................................................................................................5
                                                      Conclusion..................................................................................................6
                                                      Revenue Plan.............................................................................................6
                                                      Revenue-Related Performance Measure...................................................8
                                                      Sales Targets..............................................................................................9
                                                        Determining and Distributing Customized Sales Targets.........................9
                                                        Reconciling Estimated Sales Revenue
                                                        With Actual Realized Revenue...............................................................10
                                                     Recommendations...................................................................................... 11
                                                      Management’s Comments........................................................................ 11
Findings




                                                      Evaluation of Management’s Comments..................................................12
                                                     Appendices..................................................................................................13
                                                      Appendix A: Additional Information...........................................................14
                                                        Background............................................................................................14
                                                        Objective, Scope, and Methodology.......................................................16
Recommendations




                                                        Prior Audit Coverage..............................................................................17
                                                      Appendix B: Units in the Pay For Performance Program,
                                                      Fiscal Year 2013.......................................................................................18
                                                      Appendix C: Operating Revenue by Area.................................................20
                                                      Appendix D: District Operating Revenue Performance,
                                                      Fiscal Years 2012 and 2013......................................................................21
                                                      Appendix E: Management’s Comments....................................................24
                                                     Contact Information.....................................................................................28
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                           Print                          4
Highlights
                    Findings                            Introduction
                                                        This report presents the results of our audit of the U.S. Postal Service’s Revenue Plan and Sales Targets
                                                        (Project Number 13RG027MS000). This audit was self-initiated. Our objective was to identify industry best practices and to
                                                        evaluate the Postal Service’s revenue plan and sales targets, including how they are determined, distributed, and monitored.
                                                        See Appendix A for additional information about this audit.

                         The sales target represents    Each year the Postal Service determines various financial projections, including its revenue plan and sales targets. The revenue
                                                        plan represents the organization-wide revenue projection. Select information about the revenue plan is as follows:
Table of Contents




                      specific amounts of new sales
                                                        ■■ Determining: Management estimates mail volume according to mail class,1 using the most recent quarter’s actual mail volume,
                          the Postal Service’s Sales       revenue, and other economic measures. These estimated mail volumes are multiplied by the expected average revenue for
                       organization plans to achieve       each mail product to determine the total revenue plan for the year. Additionally, headquarters product managers2 incorporate
                                                           any planned initiatives that would impact revenue. The fiscal year (FY) 2014 revenue plan is $67.7 billion. Once revenue and
                              during the fiscal year.      mail volumes are projected, expenses are projected. The expense projections include operating budgets for about 32,000 field
                                                           offices and other costs, such as headquarters’ administrative and program costs.

                                                        ■■ Distribution and monitoring: The revenue plan is subsequently distributed to the field offices and monitored at the unit, district,
                                                           area, and headquarters levels through the Financial Performance Report (FPR).3

                                                        The sales target represents specific amounts of new sales the Postal Service’s Sales organization plans to achieve during the
Findings




                                                        fiscal year. This target was           in new sales for FY 2014. Select information about the sales targets is as follows:

                                                        ■■ Determining: Sales management determines sales targets using past sales performance and expected growth based on an
                                                           assessment of current market conditions.

                                                        ■■ Distribution: Sales targets are distributed to individual Sales employees at the beginning of the fiscal year.

                                                        ■■ Monitoring: The Postal Service uses various weekly and monthly reports4 to monitor progress toward sales targets.
Recommendations




                                                        These financial projections, calculated independently of each other, are the basis for measuring sales and revenue performance.
                                                        See Appendix A for additional information about these processes. The Postal Service’s challenging financial condition and outlook
                                                        make it increasingly important that these projections be effectively determined, distributed, and monitored.

                                                        We benchmarked the processes for determining, distributing, and monitoring sales targets and the revenue plan against those of
                                                        five best-in-class organizations,5 four of which are in the delivery services sector.




                                                        1	 Examples of mail classes are Express Mail, First-Class™ Mail, Priority Mail, Standard Mail, and Package Services.
Appendices




                                                        2	 Headquarters product managers include the managers of Retail, Commercial, and Marketing.
                                                        3	 A report prepared after general ledger processing is completed. The FPR shows items such as current and year-to-date revenue and expenses and is included in the
                                                            Accounting Data Mart (ADM), the repository for all accounting and finance related data for the Postal Service.
                                                        4	 These reports include two spreadsheets. One includes sales targets for each Sales employee and his or her corresponding progress toward meeting those targets. The
                                                           other summarizes sales results at the area level for the week, quarter-to-date, and year-to-date.
                                                        5	 We commissioned a study of leading organizations that have direct insight into successfully determining, distributing, and monitoring sales targets and revenue plans at
                                                           their organizations. We have included the results of this research throughout this report, as appropriate.
                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                                                Print                                                 5
Highlights                                              Conclusion
                                                        Based on our review and research of best practices, the Postal Service can improve how it determines, distributes, and monitors
                                                        its revenue plan and sales targets to drive greater revenue performance and promote a focus on revenue generation throughout
                                                        the organization. Specifically:

                                                        ■■ The Postal Service revenue plan could be more aggressive to better promote growth and reflect increases in sales targets.
                      The Postal Service can improve       While the 2014 revenue plan reflected higher revenue growth, the Postal Service’s revenue plan does not always sufficiently
                                                           integrate the growth forecasted by the Sales organization. Postal Service revenue plans were below the prior year’s actual
Table of Contents




                      how it determines, distributes,      revenue in 2 of the last 3 years. Additionally, although the Postal Service has aggressively cut expenses, continuing to set
                                                           bolder and more aggressive revenue goals could improve revenue performance.
                       and monitors its revenue plan
                          and sales targets to drive    ■■ Not all Postal Service employees have a specific revenue goal in their individual pay for performance (PFP) measures. Leading
                                                           organizations distribute revenue goals to all operational employees.
                       greater revenue performance
                                                        ■■ Targets for individual sales staff do not reflect local conditions such as the type of customers and local economy. Instead, the
                    and promote a focus on revenue         Postal Service’s sales targets are distributed equally based on the position held by the salesperson. For example, the FY 2014
                                                           sales target for all shipping solutions specialists (SSS) is           , regardless of any other factors — either internal or external
                             generation throughout
                                                           — that might affect sales opportunities. Best practices of leading organizations include a robust account management and
                                  the organization.        territory segmentation process that considers a variety of internal and external factors.
Findings




                                                        ■■ The Postal Service does not have a system to reconcile the estimated revenues recorded by the Sales organization with actual
                                                           realized revenues. Best-in-class organizations have information systems that allow them to track revenue associated with
                                                           customer accounts from initiation of the sales cycle to realization of revenue.

                                                        Revenue Plan
                                                        The Postal Service has a detailed process for determining, distributing, and monitoring its revenue plan:
Recommendations




                                                        ■■ Using recent performance history and current economic measures to determine the plan.

                                                        ■■ Distributing the plan to the field at the beginning of each fiscal year.

                                                        ■■ Continually monitoring performance at the unit, district, area, and headquarters levels.6

                                                        Based on our review and research of best practices, we found these procedures are generally sound. However, the Postal Service
                                                        revenue plan could be more aggressive to better promote growth and reflect increases in sales targets. While the
                                                        2014 revenue plan reflected higher revenue growth, the Postal Service’s revenue plan does not always sufficiently integrate the
                                                        growth forecasted by the Sales organization. Postal Service revenue plans were below the prior year’s actual revenue in 2 of the
                                                        last 3 years, despite sales targets increasing by        each of the last 3 years. (See Figure 1 and Figure 4).
Appendices




                                                        6	 Additional information on this process is provided in Appendix A.
                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                       Print                                   6
Highlights
Table of Contents                                    Figure 1. Revenue Plan Compared to Prior Year’s Actual Revenue, FY 2011 through FY 2014 (in Billions)




                                                     Source: FPR data from the ADM.
Findings




                                                     While we recognize the uncertainty of how other factors occurring during that time (such as a slow economy, increasing
                                                     competition, and changing customer preferences) would impact the Postal Service’s revenue plans, the fact that these
                                                     revenue plans were below prior year results did not reflect an emphasis on overall revenue growth. According to
                                                     the Postal Service’s FY 2013 10-K Report, it generated operating revenue of $67.32 billion,7 which was more than both the
                                                     operating revenue plan and the prior year actual operating revenue.

                                                     In FY 2013, the Postal Service would have needed to generate revenue of $72.13 billion to break even (see Figure 2).8 It will
Recommendations




                                                     be critical for the Postal Service to establish aggressive revenue plans in the future to help cover its operating expenses —
                                                     particularly as the Postal Accountability and Enhancement Act of 2006 allows the Postal Service to retain earnings in years when
                                                     revenue exceeds costs.9 While we recognize the Postal Service established a more aggressive revenue plan in FY 2014 — this
                                                     plan is $1.78 billion more than the actual FY 2013 revenue — this is the only time in the past 3 years that the revenue plan
                                                     exceeded the previous year’s actual revenue. Furthermore, the Postal Service aggressively cut nearly $9 billion in expenses in
                                                     FY 2013. Continuing to set bolder and more aggressive revenue plans, similar to the Postal Service’s aggressive expense
                                                     reduction efforts, could improve revenue performance.
Appendices




                                                     7	 This amount reflects a change in accounting estimate related to the recording of revenue for the Forever Stamp, which is not reflected in FPR data.
                                                     8	 This amount includes expenses related to retiree health benefit premiums, prefunding of retiree health benefits, and workers’ compensation.
                                                     9	 Public Law 109-435.
                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                                             Print                            7
Highlights                                           For additional details on each Postal Service area’s FY 2013 actual, planned, and prior year’s operating revenue, see Appendix C.
                                                     See Appendix D for additional details regarding each district’s operating revenue performance for FYs 2012 and 2013.

                                                     Figure 2. Select Revenue Performance Information, FYs 2012 and 2013 (in Billions)
Table of Contents
Findings




                                                     Sources: Postal Service FY 2013 10-K report and FPR data from the ADM.



                                                     Revenue-Related Performance Measure
                                                     Another way the Postal Service could facilitate revenue growth is through its PFP program. While operating income and revenue
                                                     have been included as one of the corporate performance measures for all Postal Service employees covered in the PFP
                                                     program,10 only certain employees have specific revenue-related performance measures associated with their organizational
                                                     unit.11 In FY 2013, 45 percent of the organizational units did not have a revenue-related performance measure.12 While some of
Recommendations




                                                     these units may be focused on operational functions, having a revenue performance measure would emphasize the importance of
                                                     providing best in class service to Postal Service customers to retain and grow revenues.

                                                     Best-in-class organizations incentivize revenue generation for both the sales staff and operations teams. These organizations
                                                     employ volume-growth-linked compensation across the entire operations workforce, from delivery drivers to upper-level
                                                     management. A former manager at one of the benchmarked organizations noted, “Everyone in the organization had some
                                                     compensation based around volume growth.” Linking bonus plans to volume growth mitigated potential conflicts of interest
                                                     between Sales and Operations, which increased the drive to deliver on complex customer demands at all levels of the company.
                                                     Incentivizing operations to generate revenue is one of the most effective ways to achieve revenue goals.
Appendices




                                                     10	Corporate performance measures apply to all employees in the PFP program and are the same for all employees. In FY 2013, operating income was included as one of the
                                                        corporate performance measures and in FY 2014, operating income and total revenue were included.
                                                     11	Units are certain organizational distinctions such as area Human Resources, District Finance, Plant Maintenance, and International Service Center. Additional information
                                                        on these units is provided in Appendix B.
                                                     12	Unit performance measures apply to the 46,444 field and field-related employees and are tailored to the employee’s specific unit.
                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                                           Print                                               8
Highlights                                           By aligning the goals of the entire organization to attaining revenue, best-in-class organizations are able to deliver consistent
                                                     revenue growth. Broadening awareness of revenue-generation goals throughout the organization, with a specific focus on
                                                     enhancing competitive positioning to drive total revenue growth, should help all Postal Service employees understand the link
                                                     between Sales and Operations.

                                                     Sales Targets
                                                     The Sales organization has procedures for determining, distributing, and monitoring sales targets, including:
Table of Contents




                                                     ■■ Analyzing past sales performance and current market conditions to determine sales targets.

                                                     ■■ Distributing sales targets to Sales employees at the beginning of each fiscal year.

                                                     ■■ Monitoring performance weekly and monthly.13

                                                     Based on our review and research of best practices, we found these procedures are generally sound. However, the Sales
                                                     organization could be more effective by customizing how it determines and distributes sales targets to individual Sales employees
                                                     and monitoring revenue by tracking actual revenue and comparing it to estimated sales revenue.

                                                     Determining and Distributing Customized Sales Targets
                                                     Currently, sales targets for individual sales staff do not reflect unique local sales conditions (such as the type of customers, local
Findings




                                                     economy, and geography). Instead, sales targets are distributed based on the position held by the sales employee. For example,
                                                     the FY 2014 sales target for all SSS is             , regardless of any other factors — either internal or external — that might affect
                                                     sales opportunities. Management stated that these targets represent the minimum sales expected for that year, and that these
                                                     targets are reasonable for all SSSs due to the many opportunities available in each market.

                                                     The best practices of leading organizations, however, include a robust account management and territory segmentation process
                                                     that considers a variety of internal and external factors when determining and distributing customized sales targets for individuals.
Recommendations




                                                     As shown in Figure 3, specific factors could include the product portfolios, economic conditions, and addressable market:

                                                     Figure 3. Internal and External Factors Affecting Sales Targets
Appendices




                                                     Source: U.S. Postal Service Office of Inspector General.



                    Revenue Plan and Sales Targets   13	 See Appendix A for additional details on these procedures.
                    Report Number MS-AR-14-007
                                                                                                                                                   Print                                       9
Highlights                                           Determining and distributing customized sales targets that better reflect local sales conditions should prompt increased sales in
                                                     locations with higher growth potential and result in more objective monitoring and assessment of individual Sales staff performance
                                                     based on these local factors.

                                                     Reconciling Estimated Sales Revenue With Actual Realized Revenue
                                                     The Postal Service does not have a system to reconcile the estimated revenues recorded by the Sales organization with actual
                                                     realized revenues. That is, the Postal Service is unable to compare actual revenue from a customer with estimated revenue for
                                                     that customer as initially recorded by Sales employees. The Postal Service has recognized this issue, and the Sales organization
Table of Contents




                                                     is working to replace the CustomerFirst! system14 for FY 2015 with one that would assist with the reconciliation.15 Furthermore,
                                                     an organizational initiative called Achieve 100% Customer and Revenue Visibility16 seeks to improve revenue system reporting
                                                     capabilities, including linking revenue to customers. However, until such a system is implemented, there is a risk that an individual
                                                     Sales employee would achieve his or her sales targets without actually generating the revenue that was estimated.

                                                     Best-in-class organizations have information systems that allow them to track revenue associated with customer accounts from
                                                     initiation of the sales cycle to realization of revenue. All five benchmarked organizations use account numbers to track progression
                                                     toward sales targets and to reconcile gaps between estimated and realized sales revenue. In particular, one benchmarked
                                                     organization has the ability to “track every shipment at every stage right back to the sales people” and determine in near real-time
                                                     when sales efforts result in actual revenue.

                                                     Developing a strategy to monitor progress toward sales targets against realized revenue should enable the Postal Service to more
Findings




                                                     effectively track revenue by customers and also to more objectively monitor and assess Sales staff performance. This monitoring
                                                     could eventually be used to better align the Sales staff compensation program with leading practices that incorporate a variable
                                                     incentive component.
Recommendations
Appendices




                                                     14	The system used by Sales staff to manage business customer accounts and service requests.
                                                     15	Decision Analysis Report (DAR) Business Case, CustomerFirst! Replacement, January 2, 2014. The Investment Review Committee recommended approval of funding for
                                                        CustomerFirst! replacement on January 15, 2014. The new system is expected to be fully integrated by September 30, 2014.
                                                     16	Management officials have developed multiple initiatives as part of the Delivering Results, Innovation, Value, and Efficiency (DRIVE) process it is using to improve business
                                                        strategy, development, and execution. The initiatives include cost cutting, revenue generation, and capability enhancement.
                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                                              Print                                              10
Highlights
                    Recommendations                    We recommend the vice president, Finance and Planning, in coordination with the director, Compensation and Benefits:

                                                       1.	 Develop a strategy that emphasizes revenue generation throughout the organization by creating more aggressive revenue
                                                           plans that integrate forecasted sales growth.

                                                       2.	 Establish individual revenue-related performance measures for operational employees covered by the pay for performance
                                                           program.
                                We recommend the
                                                       We recommend the vice president, Sales:
Table of Contents




                           Postal Service develop a
                           strategy that emphasizes    3.	 Develop a strategy for determining and distributing customized sales targets.

                     revenue generation throughout     We recommend the vice president, Sales, in coordination with the vice president, Finance and Planning:

                        the organization by creating   4.	 Develop a strategy for reconciling estimated sales revenue against actual realized revenue.

                     more aggressive revenue plans
                                                       Management’s Comments
                           that integrate forecasted   Management disagreed with all of the findings and recommendations.
                                     sales growth.
                                                       Regarding recommendation 1, management disagreed with our assertions that the annual revenue plans are not sufficiently
                                                       aggressive and do not reflect increases in sales targets. Management stated that each year the Postal Service’s revenue planning/
Findings




                                                       forecasting process factors in a variety of considerations including pricing assumptions and marketing and sales initiatives for
                                                       growing revenue. Management also stated that even with its aggressive revenue and sales growth targets, the Postal Service
                                                       faces numerous obstacles that will offset these gains, including a price cap on roughly 75 percent of its revenue; significant volume
                                                       loss in First-Class Mail; revenue and volume loss from potential pricing changes for its competitive products (which make up 25
                                                       percent of revenue); and significant revenue loss from customers stopping or reducing their mailings with the Postal Service for
                                                       other reasons.
Recommendations




                                                       Regarding recommendation 2, management disagreed that all operational positions should have a revenue component in their
                                                       individual PFP (unit) measures. Management believes that the total revenue goal is appropriately accounted for in corporate-level
                                                       employee performance measures.

                                                       Regarding recommendation 3, management stated that the Postal Service employs a smaller sales force than most leading
                                                       organizations and that the other factors we mentioned do not adversely affect sales opportunities. Management also stated that
                                                       lead generation and workload distribution models balance opportunities among Sales personnel.

                                                       Regarding recommendation 4, management stated that the Postal Service has made ongoing improvements to systems
                                                       and infrastructure that support customer account and revenue information, which has provided more accurate reconciliation
                                                       capabilities. See Appendix E for management’s comments in their entirety.
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                  Print                                  11
Highlights                                           Evaluation of Management’s Comments
                                                     The OIG considers management’s comments unresponsive to the findings and recommendations.

                                                     Regarding recommendation 1, management disagreed with our assertion that the annual revenue plans are not sufficiently
                                                     aggressive. We recognize the progress the Postal Service has made in that its FY 2014 revenue plan reflected higher revenue
                                                     growth, particularly compared to the plans for FYs 2012 and 2013, both of which were below the prior year’s actual revenue. We
                                                     continue to believe, however, that bolder, more aggressive revenue plans are needed going forward. Management’s response
                                                     included a detailed discussion on pricing constraints – the price cap for market-dominant products and price sensitivities for
Table of Contents




                                                     its competitive products – and the impact of customer churn and defection. While we recognize these challenges, we believe
                                                     the Postal Service has opportunities to aggressively increase revenue plans without making significant pricing changes. Such
                                                     opportunities include providing reliable delivery service, enhancing its customer service, or more actively selling its products and
                                                     services.

                                                     Regarding recommendation 2, management disagreed that all operational positions should have revenue in their individual PFP
                                                     unit measures. We continue to believe that giving employees a specific individual revenue-related performance measure would
                                                     help grow awareness of the importance of revenue generation throughout the organization.

                                                     Regarding recommendation 3, management stated that the Postal Service employs a smaller Sales force than most leading
                                                     organizations and, therefore, the local conditions we mentioned in our work would not adversely affect sales opportunities. We
                                                     continue to believe that these local conditions should play a role in determining and distributing sales targets as it could prompt
Findings




                                                     increased sales in locations with higher growth potential and result in more objective monitoring and assessment of individual
                                                     Sales staff performance. Furthermore, our benchmarking study highlighted one leading organization with a Sales force smaller
                                                     than that of the Postal Service and which has effectively set targets for individual Sales staff consistent with our recommendation.
                                                     This company allocates targets based on a segmentation process that includes external factors such as industry growth, the
                                                     customers covered, and the economic dynamics of the geographic region.

                                                     Regarding recommendation 4, management stated that the Postal Service has made ongoing improvements to systems
Recommendations




                                                     and infrastructure that support customer account and revenue information, which has provided more accurate reconciliation
                                                     capabilities. As we noted in the report, the Postal Service still lacks the capability to fully reconcile estimated sales revenue to
                                                     actual realized revenue. We continue to believe that developing a strategy to monitor estimated sales revenue against actual
                                                     realized revenue should enable the Postal Service to more effectively track revenue by customers and to more objectively monitor
                                                     and assess Sales staff performance.

                                                     We view the disagreements on recommendations 1 through 4 as unresolved but do not plan to pursue them through the formal
                                                     audit resolution process. We will consider the recommendations closed with the issuance of this report.
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                 Print                                      12
Highlights
                    Appendices
                                                        Appendix A: Additional Information...........................................................14
                                                         Background ...........................................................................................14
                                                         Objective, Scope, and Methodology.......................................................16
                          Click on the appendix title    Prior Audit Coverage..............................................................................17
Table of Contents




                                                        Appendix B: Units in the Pay For Performance Program,
                             to the right to navigate   Fiscal Year 2013.......................................................................................18
                             to the section content.    Appendix C: Operating Revenue by Area.................................................20
                                                        Appendix D: District Operating Revenue Performance,
                                                        Fiscal Years 2012 and 2013......................................................................21
                                                        Appendix E: Management’s Comments....................................................24
Findings
Recommendations
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                           Print                    13
Highlights          Appendix A:                      Background
                    Additional Information           Revenue Plan

                                                     The Postal Service has a detailed process for determining, distributing, and monitoring its revenue plan for the upcoming fiscal
                                                     year, which includes components in headquarters, areas, and districts. To start the revenue planning process, the Revenue and
                                                     Volume Forecast group collects the most recent quarter’s actual revenue and volume from the Statistical Program group17 and
                                                     updates the volume projection model18 for the upcoming year. The Revenue and Volume Forecast group then uses this model
                                                     to estimate mail volume according to mail class. These volumes are then multiplied by the expected average revenue for each
Table of Contents




                                                     mail product to determine revenue projections for the upcoming year. Managers in the Finance Department then present these
                                                     projections to headquarters’ product managers19 for review and discussion. During their review, product managers incorporate any
                                                     planned initiative that would impact revenue.

                                                     The Finance Department then incorporates the resulting revenue projections into the integrated financial plan (IFP),20 which it
                                                     forwards to the executive leadership team21 (ELT) for review and approval. The ELT presents its approved plan to the Board for
                                                     review and approval. In September, while the IFP is in the preparation and approval process, the revenue plans (with specific
                                                     targets to various revenue channels and organizational levels) are distributed to each area. Area managers review these revenue
                                                     plans and discuss them with various district, sales, marketing, and headquarters managers. The revenue plans are subsequently
                                                     distributed to the field through the FPR, located in the ADM.22 The plans included in the FPR are adjusted, if necessary, based on
                                                     the final IFP approved by the Board. Figure 4 provides the actual operating revenue compared to the operating revenue plan for
                                                     FYs 2012 and 2013, along with the operating revenue plan for FY 2014.
Findings
Recommendations




                                                     17	 The Statistical Program group provides statistically reliable, accurate, and timely estimates of revenue, volume, cost, and transit time for domestic and international mail.
                                                     18	 The volume projection model is an econometric model, which uses economic measures such as retail sales, employment, investment, postal prices, and the consumer
                                                         price index.
                                                     19	 Headquarters product managers include the managers of Retail, Commercial, and Marketing.
Appendices




                                                     20	 The IFP is an executive summary document that includes the operating, capital investment, and financing plans for the fiscal year. The IFP provides management and the
                                                         U.S. Postal Service Board of Governors (Board) with a basis for assessing the Postal Service’s estimated business needs and results. It allows them to continually
                                                         monitor, evaluate, and decide on issues relating to the Postal Service’s financial and operational conditions throughout the fiscal year.
                                                     21	 The ELT consists of Postal Service senior executives: the postmaster general (PMG), deputy PMG, chief operating officer, chief information officer, chief financial officer,
                                                         general counsel, chief marketing and sales officer, and chief Human Resources officer.
                                                     22	 The repository for all accounting and finance data for the Postal Service that is a part of the Enterprise Data Warehouse (a single repository for managing the
                                                         Postal Service’s corporate data assets).
                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                                               Print                                               14
Highlights                                           Figure 4. Revenue Plan and Sales Targets


                                                                            REVENUE PLAN AND SALES TARGETS
                                                             The Postal Service can improve how it determines, distributes, and monitors its revenue plan and sales targets to
                                                             drive greater revenue performance and promote a focus on revenue generation throughout the organization.
Table of Contents




                                                                        REVENUE PLAN                                                      SALES TARGETS
                                                              (represents the organization-wide revenue projection)         (represents specific amounts of new sales the Postal Service’s
                                                                                                                            Sales organization plans to achieve during the fiscal year)




                                                                                                                                       The sales target was
                                                                The revenue plan was
                                                                                                                                                 in new sales
                                                               $67.7 billion for FY 2014.
                                                                                                                                           for FY 2014.
Findings




                                                                  (Hover your mouse here to see past operating                      (Hover your mouse here to see past sales targets
                                                                   revenue performance to plan comparisons)                                performance to plan comparisons)
Recommendations




                                                     Revenue performance is monitored at various levels within the Postal Service, primarily through use of the FPR. Field budget
                                                     personnel at the district, area, and headquarters levels perform budget evaluations of their respective offices to determine whether
                                                     a variance to budget is evident. Area managers are required to submit field variance reports to Corporate Accounting, explaining
                                                     any variance, plus or minus, that is greater than $1 million. Corporate Accounting reviews the reports and follows up on any
                                                     discrepancy or unusual item with the respective area office.

                                                     Sales Targets

                                                     The Sales organization is tasked with expanding the Postal Service’s customer base and growing revenue. It determines annual
                                                     new sales targets using past sales performance history and expected growth, which is based on an assessment of current market
Appendices




                                                     conditions. Each year, the Sales organization develops a sales strategy document that discusses the economic environment and
                                                     how it plans to meet its sales targets. Figure 4 provides the actual sales compared to targets for FYs 2012 and 2013, along with
                                                     the targets for FY 2014.


                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                                           Print             15
Highlights                                           The Sales Performance Management team is responsible for distributing and monitoring sales targets. After the team determines
                                                     the sales targets, it captures the data in a monthly score card spreadsheet and distributes it to the field. The Sales organization
                                                     monitors progress toward reaching sales targets at both the employee level and organization levels weekly and monthly through
                                                     various reports, including a monthly scorecard that tracks the number of sales, total sales amount, and average sales amount for
                                                     each Sales employee. The Sales organization also added a quarterly sales target for each Sales employee in FY 2014 to more
                                                     evenly spread sales throughout the year. The Postal Service also developed a Sales Management Process (SMP) to provide a
                                                     roadmap for the Sales team to strengthen effectiveness using some proven best practices of private industry. The SMP includes
                                                     four core activities:
Table of Contents




                                                     ■■ Biweekly Plan and Review – this allows management to review Sales staff performance to improve sales and revenue results.

                                                     ■■ Biweekly and As Needed Sales Coaching – this provides feedback to help Sales staff improve sales results.

                                                     ■■ Semiannual Sales Review – this allows each level of Sales management to provide written feedback to each direct reporting
                                                        Sales employee to ensure understanding of all assigned action items.

                                                     ■■ As Needed Target Review – this is designed to help the Sales employee return to an acceptable level of overall sales
                                                        performance.

                                                     Objective, Scope, and Methodology
Findings




                                                     Our objective was to identify industry best practices and to evaluate the Postal Service’s revenue plan and sales targets, including
                                                     how they are determined, distributed, and monitored. To accomplish our objective, we:

                                                     ■■ Analyzed FPR data to determine the operating revenue plan and actual revenue performance for FY 2011 through FY 2014.

                                                     ■■ Reviewed sales documents to determine the sales targets and actual sales figures for FY 2012 through FY 2014.

                                                     ■■ Held discussions with Postal Service officials (Sales and Finance) to determine procedures for determining, distributing, and
Recommendations




                                                        monitoring sales targets and the revenue plan.

                                                     ■■ Benchmarked how leading organizations and Postal Service competitors determine, distribute, and monitor sales targets and
                                                        the revenue plan.

                                                     ■■ Analyzed the benchmarking study results to determine which best practices may apply to the Postal Service.

                                                     ■■ Reviewed the Postal Service’s PFP program and metrics to determine how revenue performance is incorporated.

                                                     ■■ Reviewed DRIVE Initiative Number 30, Achieve 100% Customer and Revenue Visibility.

                                                     ■■ Reviewed the January 2, 2014, DAR Business Case, CustomerFirst! Replacement.
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                Print                                   16
Highlights                                           We conducted this performance audit from June 2013 through September 2014, in accordance with generally accepted
                                                     government auditing standards and included such tests of internal controls as we considered necessary under the circumstances.
                                                     Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
                                                     basis for our findings and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable
                                                     basis for our findings and conclusions based on our audit objective. We discussed our observations and conclusions with
                                                     management on July 29, 2014, and included their comments where appropriate. During our review, we relied on computer-
                                                     generated FPR data from the ADM. While we did not assess the reliability of data in the ADM, we tested the financial information
                                                     as part of our annual financial statement audits. We determined that the data were sufficiently reliable for the purposes of this
                                                     report.
Table of Contents




                                                     Prior Audit Coverage
                                                     Report Title                                     Report Number                Final Report Date               Monetary Impact
                                                     Revenue Performance to Plan for Fiscal              MS-WP-14-001                      2/27/2014                          None
                                                     Years 2012 and 2013
                                                     Report Results: The Postal Service exceeded its revenue plans in FY 2013 across most channels and organizational levels. Most
                                                     notably, the Postal Service exceeded its national operating revenue plan by $1.2 billion that year ($65.9 billion in actual revenue
                                                     compared to a $64.7 billion plan). While we consider these results encouraging, the revenue plan for FY 2013 was below actual
                                                     revenue generated during FY 2012. Going forward, the Postal Service’s challenging financial outlook will continue to necessitate an
                                                     aggressive revenue strategy — both in terms of revenue plan and actual performance. This report did not contain any findings or
                                                     recommendations.
                                                     U.S. Postal Service Budget Formulation              DP-MA-13-002                      8/7/2013                           None
Findings




                                                     and Execution Process
                                                     Report Results: The Postal Service’s budget formulation and execution process has sufficient documented measures in place
                                                     for the execution and monitoring of budget performance. The Revenue and Volume Forecast group initiates the budget process by
                                                     developing revenue and mail volume forecasts for the upcoming fiscal year. It calculates these forecasts using changes in demand
                                                     for postal products, to current laws and regulations, and in assumptions about the current economic outlook. This report did not
                                                     contain any findings or recommendations.
Recommendations
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                Print                                      17
Highlights          Appendix B:                                                                 Was Revenue Included
                                                                                                as a Unit Performance
                    Units in the Pay For             Unit Name                                  Measure?
                    Performance Program,             Area Human Resources                                No
                    Fiscal Year 2013                 Area Finance                                        No
                                                     Area Marketing                                      Yes
                                                     Area Manager, In-Plant Support                      No
                                                     Area Distribution Networks Office                   No
                                                     Area Maintenance                                    No
Table of Contents




                                                     Area Delivery Point Sequence                        No
                                                     Area Manager Operations Support                     Yes
                                                     Area Vice President                                 Yes
                                                     Area Retail                                         Yes
                                                     Area Consumer and Industry Contact                  Yes
                                                     Manager
                                                     Area Global Account Manager                         Yes
                                                     Area Global Account Specialists                     Yes
                                                     Area Sales Analysis Specialists                     Yes
                                                     Area Business Service Network Specialist            Yes
                                                     Area Small Business and Mail Acceptance             Yes
Findings




                                                     District Leadership                                 Yes
                                                     District                                            Yes
                                                     Postal Career Executive Service Post                Yes
                                                     Offices
                                                     Manager Customer Services Operations                Yes
                                                     Manager of Post Office Operations                   Yes
                                                     District Manager, Operations Program                No
                                                     Support
Recommendations




                                                     District Human Resources                            No
                                                     District Finance                                    No
                                                     District Marketing                                  Yes
                                                     District Consumer and Industry Contact              Yes
                                                     Manager
                                                     District Time and Attendance Collection             No
                                                     System
                                                     District Statistical Programs                       No
                                                     District Retail                                     Yes
                                                     District Business Service Network                   Yes
                                                     Representative
                                                     District Bulk Mail Entry Unit                       No
Appendices




                                                     Executive and Administrative Schedule               Yes
                                                     26-21 Post Office
                                                     Executive and Administrative Schedule               Yes
                                                     20-18 Post Office


                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                        Print   18
                                                     Executive and Administrative Schedule
Highlights
                                                     16-11 Post Office                                 Yes
                                                     Executive and Administrative Schedule A-E         Yes
                                                     Post Office
                                                     Customer Service Delivery and Retail 22 +         Yes
                                                     Above
                                                     Customer Service Delivery 22 + Above              Yes
                                                     Customer Service Retail 22 + Above                Yes
                                                     Customer Service Delivery and Retail 21 +         Yes
                                                     Below
Table of Contents




                                                     Customer Service Delivery 21+ Below               Yes
                                                     Customer Service Retail 21+ Below                 Yes
                                                     Manager Shipping and Mailing Solutions            Yes
                                                     (Area)
                                                     Manager Shipping and Mailing Solutions            Yes
                                                     (District)
                                                     SSS                                               Yes
                                                     Mailing Solution Specialists                      Yes
                                                     Business Solutions Specialists                    Yes
                                                     Sales & Contract Analysts                         Yes
                                                     Postal Career Executive Service Processing        No
                                                     and Distribution Center (P&DC)
Findings




                                                     P&DC/Facility; Executive and Administrative       No
                                                     Schedule
                                                     Plant Manager, In-Plant Support                   No
                                                     Plant Manager, In-Plant Support Without           No
                                                     Surface Visibility
                                                     Plant Transportation and Networks Systems         No
                                                     Plant Transportation and Networks Systems         No
                                                     Without Surface Visibility
Recommendations




                                                     Plant Maintenance                                 No
                                                     Manager Distributions Operations                  No
                                                     National Distribution Center                      No
                                                     Priority Mail Processing Centers/Labor            No
                                                     Distribution Code
                                                     Air Mail Center                                   No
                                                     Surface Transfer Centers (Hub and Spoke           No
                                                     Program) Without Surface Visibility
                                                     Surface Transfer Centers (Hub and Spoke           No
                                                     Program)
                                                     Remote Encoding Center                            No
                                                     International Service Center                      No
Appendices




                                                     Postal Police Officer                             No
                                                     Headquarters Equal Employment                     No
                                                     Opportunity
                                                     Source: National Performance Assessment system.



                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                             Print   19
Highlights          Appendix C:                      Figure 5. Operating Revenue by Area
                    Operating Revenue by Area



                                                                                           Western
                                                                                                     Great Lakes
                                                                                                                              Northeast
Table of Contents




                                                                                                                Eastern




                                                                                                                           Capital Metro
                                                                 Pacific
Findings




                                                                                                     Southern




                                                                                   Hold your mouse over the area
Recommendations




                                                                                    labels to see FY 2013 Actual,
                                                                                   Plan, and Prior Year Operating
                                                                                    Revenues for a specific area.
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                   Print                   20
Highlights          Appendix D:                                                                                FY 2012                                              FY 2013
                    District Operating Revenue                                                                                     (In Millions)1
                                                           District
                    Performance, Fiscal Years                                                                             Difference                                              Difference
                                                                                Plan Revenue             Actual Revenue Between Actual      Plan Revenue         Actual Revenue Between Actual
                    2012 and 2013                                                                                          and Plan                                                and Plan
                                                     Northland                           $2,240.15                 $2,320.49      $80.34            $2,276.15          $2,472.07       $195.92
                                                     Central                             $2,062.14                  $2,153.05     $90.91            $2,109.95         $2,280.67        $170.72
                                                     Pennsylvania
Table of Contents




                                                     Central Illinois                    $2,583.47                 $2,723.77      $140.30           $2,689.95         $2,849.05        $159.10
                                                     Lakeland                            $3,873.66                 $3,723.18    ($150.47)           $3,732.99         $3,839.83        $106.83
                                                     Salt Lake City                        $938.12                   $967.08       $28.97             $979.57         $1,085.82        $106.25
                                                     Dallas                              $1,867.86                 $1,896.07       $28.21           $1,864.18         $1,947.06         $82.89
                                                     Hawkeye                             $1,019.22                 $1,042.56       $23.34           $1,025.26          $1,107.58        $82.32
                                                     Greater Indiana                     $1,234.19                 $1,311.97       $77.78           $1,313.22         $1,371.34         $58.12
                                                     Sacramento                          $1,236.56                 $1,303.65       $67.09           $1,312.38         $1,366.99         $54.61
                                                     Chicago                               $612.02                   $618.21        $6.20             $608.82           $658.72         $49.90
                                                     San Diego                             $734.45                   $800.03       $65.58             $803.48           $844.55         $41.07
                                                     Mid-Carolinas                         $687.29                   $759.83       $72.54             $752.90           $792.32         $39.43
                                                     Arizona                             $1,051.28                  $1,101.17      $49.89            $1,104.17         $1,141.74        $37.57
                                                     Cincinnati                          $2,005.58                 $1,974.54     ($31.04)           $1,950.93         $1,986.71         $35.78
Findings




                                                     Santa Ana                           $1,220.77                 $1,270.45       $49.68            $1,317.21        $1,351.27         $34.06
                                                     Triboro                               $501.83                   $528.36       $26.53             $540.92           $573.67         $32.75
                                                     Gulf Atlantic                       $1,081.70                 $1,099.54       $17.84            $1,118.75         $1,151.29        $32.54
                                                     Portland                              $710.25                   $733.56       $23.32             $741.33           $772.67         $31.34
                                                     Long Island                         $1,069.04                 $1,039.60     ($29.44)           $1,030.15         $1,061.00         $30.85
                                                     South Florida                        $982.55                  $1,084.61     $102.06            $1,078.57          $1,107.42        $28.85
                                                     Atlanta                             $1,513.87                 $1,535.82       $21.94           $1,359.55         $1,385.18         $25.63
Recommendations




                                                     Northern Ohio                         $857.67                   $905.80       $48.13             $906.86           $930.84         $23.98
                                                     Dakotas                               $488.31                   $519.07       $30.76              $517.06          $539.81         $22.74
                                                     Fort Worth                           $490.95                    $527.91       $36.96             $532.77           $555.33         $22.55
                                                     Suncoast                            $1,478.86                 $1,537.67       $58.81           $1,528.13         $1,549.63         $21.51
                                                     Northern New                        $1,088.44                  $1,149.26     $60.82            $1,137.45          $1,157.77        $20.32
                                                     Jersey
                                                     Sierra Coastal                        $642.83                    $668.24     $25.41             $676.41            $692.38         $15.97
                                                     Alabama                               $563.27                    $584.79     $21.53             $583.58            $597.56         $13.97
                                                     Colorado/                              $726.66                   $767.56     $40.90              $769.79           $782.50          $12.71
                                                     Wyoming
                                                     Northern New                           $731.27                   $746.82     $15.55             $755.65            $767.01         $11.36
Appendices




                                                     England
                                                     Richmond                              $583.34                    $586.84      $3.49             $587.31            $597.84         $10.53
                                                     Mid-America                           $744.21                    $788.31     $44.09             $788.61            $797.10          $8.49
                                                     1 Ranked in descending order based on FY 2013 performance to plan.


                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                           Print                             21
                                                                                             FY 2012                                              FY 2013
Highlights
                                                                                                                  (In Millions)1
                                                         District
                                                                                                           Difference                                           Difference
                                                                         Plan Revenue     Actual Revenue Between Actual    Plan Revenue        Actual Revenue Between Actual
                                                                                                            and Plan                                             and Plan
                                                     Tennessee                 $842.39           $849.92           $7.53            $861.84           $869.29          $7.44
                                                     Seattle                   $919.90           $930.71          $10.82            $937.28           $942.56          $5.28
                                                     Mississippi               $288.57           $268.98        ($19.59)            $270.01           $275.24          $5.23
Table of Contents




                                                     Greater Michigan          $578.21           $614.19         $35.99             $613.71           $618.86          $5.16
                                                     Albany                    $636.78           $660.99         $24.21             $668.49           $673.01          $4.53
                                                     Alaska                     $147.72          $151.45           $3.73            $151.84           $154.80          $2.96
                                                     Louisiana                 $425.86           $435.33           $9.47            $438.03           $440.34          $2.31
                                                     Baltimore                 $713.24           $712.76         ($0.48)            $705.99           $707.92          $1.93
                                                     Western                   $718.98           $724.26          $5.28              $727.13          $728.47           $1.34
                                                     Pennsylvania
                                                     Caribbean                 $178.54            $179.76         $1.22             $180.69           $180.70           $0.01
                                                     Honolulu                   $189.14          $202.22         $13.08             $207.22           $206.24         ($0.98)
                                                     San Francisco             $468.52           $472.01          $3.49             $455.02           $453.53         ($1.50)
                                                     Northern Virginia         $520.46           $552.23         $31.77             $550.43           $548.14         ($2.28)
                                                     Central Plains           $1,319.54         $1,363.10        $43.56            $1,334.15         $1,331.47        ($2.68)
Findings




                                                     Bay-Valley                $669.86           $680.08         $10.23             $686.82           $683.16         ($3.65)
                                                     Greater South             $693.09           $768.49         $75.40              $757.74          $752.78         ($4.96)
                                                     Carolina
                                                     Greensboro                $708.81           $727.32          $18.51            $735.61           $730.49          ($5.12)
                                                     Westchester               $273.66           $287.09         $13.43             $292.30           $285.53         ($6.78)
                                                     Capital                   $525.39            $474.15       ($51.23)            $480.19           $470.86         ($9.33)
                                                     Oklahoma                  $683.36           $699.99         $16.63             $694.79           $685.28         ($9.51)
Recommendations




                                                     Connecticut              $1,560.32         $1,518.88       ($41.44)           $1,517.90         $1,504.21       ($13.70)
                                                     Valley
                                                     Detroit                  $1,093.71         $1,080.91       ($12.80)           $1,074.57         $1,057.94       ($16.63)
                                                     New York                  $493.68            $512.17         $18.49             $519.21           $501.95        ($17.26)
                                                     Appalachian                $760.90           $750.05       ($10.85)             $751.84           $729.02       ($22.82)
                                                     Arkansas                   $405.51           $396.15        ($9.36)            $363.29           $334.49        ($28.80)
                                                     Nevada-Sierra              $408.12           $437.69         $29.57             $439.17           $410.35       ($28.81)
                                                     Houston                    $822.41          $832.08           $9.67             $831.03           $801.82       ($29.22)
                                                     Gateway                  $1,280.20         $1,346.53        $66.33            $1,334.67         $1,304.69       ($29.98)
                                                     Greater Boston           $1,025.20          $996.65        ($28.55)             $999.78           $965.73       ($34.05)
                                                     Rio Grande                 $976.30          $960.03        ($16.28)            $988.61            $948.74       ($39.87)
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                         Print                              22
                                                                                                     FY 2012                                               FY 2013
Highlights
                                                                                                                          (In Millions)1
                                                           District
                                                                                                                   Difference                                            Difference
                                                                               Plan Revenue       Actual Revenue Between Actual    Plan Revenue         Actual Revenue Between Actual
                                                                                                                    and Plan                                              and Plan
                                                     Western New                       $488.14           $501.53         $13.39             $505.14            $463.99         ($41.15)
                                                     York
                                                     South Jersey                     $1,280.16         $1,152.90      ($127.27)            $1,161.13          $1,117.68      ($43.45)
Table of Contents




                                                     Kentuckiana                       $883.53           $890.53           $7.00             $901.21            $857.59       ($43.62)
                                                     Los Angeles                      $1,231.59         $1,174.54       ($57.05)           $1,109.34          $1,063.52       ($45.82)
                                                     Philadelphia                     $1,319.27         $1,344.35        $25.07            $1,324.21          $1,266.93       ($57.28)
                                                     Metropolitan
                                                     Source: FPR data from the ADM.
Findings
Recommendations
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                                                  Print                              23
Highlights          Appendix E:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                     Print   24
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                     Print   25
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                     Print   26
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                     Print   27
Highlights
Table of Contents
Findings




                                                        Contact us via our Hotline and FOIA forms, follow us on social
                                                     networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                            or abuse. Stay informed.
Recommendations




                                                                           1735 North Lynn Street
                                                                          Arlington, VA 22209-2020
                                                                                (703) 248-2100
Appendices




                    Revenue Plan and Sales Targets
                    Report Number MS-AR-14-007
                                                                                                                              Print   28
